LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

June 24, 2021

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

5614 Connecticut Avenue, NW #307
Washington, DC 20015

DONALD C. KUPPERSTEIN V. IRENE SCHALL, PERSONAL REPRESENTATIVE OF
THE PROBATE ESTATE OF FRED KUHN; AND EXECUTIVE OFFICE OF HEALTH
AND HUMAN SERVICES OF THE COMMONWEALTH OF MASSACHUSETTS

Dear Sir or Madam:
I hereby certify that at the request of the Petitioner, on June 24, 2021, I caused
service to be made pursuant to Rule 29 and the Temporary Order of April 15, 2020, on
the following Respondents:
RESPONDENT IRENE SCHALL:
Roger Stanford
Stanford & Schall
50 Homers Wharf
New Bedford, MA 02740
(508) 994-3393- Tel.
(508) 993-0469- Fax
rstanford@msmw-law.com

RESPONDENT MASSHEALTH:
Paul T. O'Neill
Assistant General Counsel
Commonwealth of Massachusetts
Executive Office of
Health & Human Services
One Ashburton Place
Boston, MA 02108
(617) 573-1600
Paul.O'Neill@state.ma.us

This service was effected by depositing one copy of a Petition for a Writ of
Certiorari in an official “first class mail” receptacle of the United States Post Office as
well as by transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 24th day of June 2021.

